Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    MEDICAID PAYMENTS FOR
    INCONTINENCE SUPPLIES
                              OFFICE OF INSPECTOR                          GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and management problems and recommends courses to correct
them.

                                  OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout the Department.

                                  OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative sanctions,
or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

                  OFFICE OF EVALUATION                              AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

This report was prepared in the Philadelphia regional office under the direction of Robert A
Vito, Regional Inspector General. Principal project staff

REGION III                                                                  HEADQUARTERS

Robert A. Katz, Lead Analyst                                                Stuart Wright, Program Analyst
Robert A. Baiocco, Program Analyst
Linda M. Ragone, Program Analyst
Cynthia R. Hans[ord, Program Assistant

REGION IV, OAS

Bernard Rach, Project Leader

Foradditionalcopies   of this report, please contact the Philadelphia Regional Office at (800) 531-9562.
              EXECUTIVE                         SUMMARY

PURPOSE

This report provides information on inappropriate   billings and payments for
incontinence supplies in the Medicaid program.

BACKGROUND

The Medicaid program is jointly-funded by Federal and State Governments to provide
medical care for low-income individuals. The program is administered by the Health
Care Financing Administration (HCFA) under authority of Title XIX of the Social
Security Act. In Fiscal Year 1993, Medicaid expenditures totaled approximately $126
billion for 33 million recipients.

The Medicaid program varies considerably in each State. Within broad national
guidelines, States establish eligibility, coverage, claims processing, and payment
policies. Some Medicaid recipients are eligible for Medicare in addition to their
Medicaid coverage. In these instances, Medicare is the primary payer for covered
services. In accordance with a State’s particular plan, Medicaid assumes responsibility
for the recipients’ premiums, deductibles, and coinsurance.       Payments made by
Medicaid for these dually eligible individuals are called “crossover” payments.

Incontinence is the inability to control urinary and bowel functions. Under the
Medicaid program, States have the option to cover incontinence care supplies and
related equipment. Based on prescriptions furnished by patients’ physicians, such
supplies and equipment could include disposable pads, irrigation syringes, saline
solutions, and collection devices.

We recently reviewed Medicare payments for incontinence supplies. We found that

questionable billing practices may have accounted for almost $100 million or half of

incontinence allowances in 1993. We also found that suppliers engage in questionable

marketing practices to nursing homes and that Medicare beneficiaries may be

receiving unnecessary or noncovered supplies. We conducted this current review to

inform HCFA if similar practices existed in the Medicaid program. We concentrated

on 14 States which represent approximately 76 percent of 1993 Medicare payments for

incontinence supplies.

This inspection was conducted as part of “Operation Restore Trust,” a pilot program
that coordinates Federal, State, and local anti-fraud activity in five States. The
program will target abuses in home health agencies, nursing facilities, and durable
medical equipment, including incontinence supplies.




                                            i
Half of the Statesin our sampleident@ed improperMedicaidbillingsfor incontinence
supplies.

      Seven Medicaid State agencies encountered improper billings for incontinence
      devices and supplies. These States identified a wide variety of improper claims
      such as billings for recipients who were not incontinent, billings for supplies that
      were never delivered, and billings for excessive quantities of diapers for nursing
      home patients. Overpayment amounts identified included $107 million in
      California and almost $2 million in New York.

Statesdo not genera~ reviewthe appropriateness
                                             or necessityof incontinenceservices
paid by them on crossover.

      States do not generally review the appropriateness or necessity of their
      crossover payments. Since Medicare, as the primary payer, has rndde the
      payment determination, many States accept Medicare’s decisions as valid and
      do not question the propriety of such payments.

Medicaredoes not requirecarriersto notijj MedicaidStateagenciesof improperMedicare
P~       made on behalfof Me&aid beneficiaries.

       The Medicare program does not have guidelines requiring carriers to notify
       Medicaid State agencies of improper Medicare payments. Thus, States are
       often unaware of improper crossover payments, and, as a result, may be unable
       to collect inappropriately paid Medicaid monies.

RECOMMENDATIONS

We recommend that HCFA (1) alert        Medicaid State agencies about this vulnerability
regarding incontinence supplies, and   (2) take appropriate steps to ensure that
Medicaid State agencies are notified   of improper Medicare payments which
contractors discover have been made     on behalf of a Medicaid beneficiary.

While this report is limited to a review of Medicaid payments for incontinence
supplies, we believe that the problems identified associated with potentially improper
crossover payments are not limited to these supplies. If Medicaid State agencies are
not informed of the existence of improper Medicare payments on behalf of a
Medicaid beneficiary, Medicaid is powerless to avoid or recoup the related improper
Medicaid crossover payment. Thus, our second recommendation is applicable to all
Medicare services provided to Medicaid recipients, not just incontinence supplies.

We cannot precisely estimate the dollar savings to the Medicaid program that would
result from implementing these recommendations, but, based on the information we
have gathered it probably amounts to several million dollars per year.


                                             ii
AGENCY COMMENTS AND OFFICE OF INSPE~OR                     GENERAL     RESPONSE

We appreciate HCFAS positive response to our recommendations.          The HCFA plans
to focus attention on this matter as part of their overall fraud and abuse prevention
and detection strategy. Additionally, they plan to amend the Medicare Carriers
Manual to require that carriers notify Medicaid State agencies about improper
payments made on behalf of Medicaid beneficiaries. We support HCFA in these
initiatives. The full text of HCFA’S comments can be found in Appendix A.




                                          .. .
                                          111
                    TABLE                  OF CONTENTS

                                                                                                              PAGE

EXECUTIVE         SUMMARY

INTRODUCTION         ................................................. 1

FINDINGS.     ..................... ................................ 4

 � Improper   payments..        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..4

 � No review ofcrossover        claims      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4

 . No notification about improper Medicare payments                        ..................... 6

RECOMMENDATIONS               .....................                      . . . . . . . . . . . . . . . . . . . . . .    7

APPENDIX      A

   HCFA Comments           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1
                         INTRODUCTION

PURPOSE

This report provides information on inappropriate   billings and payments for
incontinence supplies in the Medicaid program.

BACKGROUND

lke MedicaidRcgram

Medicaid is a jointly-funded health insurance program between Federal and State
Governments to provide medical care for low-income individuals. The program is
administered by the Health Care Financing Administration (HCFA) under authority of
Title XIX of the Social Security Act. Nationally, Medicaid expenditures totaled
approximately $126 billion for 33 million recipients in Fiscal Year 1993.

The Medicaid program varies considerably from State to State. Within broad national
guidelines, States establish eligibility standards, determine the scope of services,
promulgate claims processing policies, and set payment rates for various medical
services. Each State designs and manages its Medicaid program through a designated
agency.

In some cases, Medicaid recipients are eligible for Medicare in addition to their
Medicaid coverage. In these instances, Medicare is the primary payer for covered
services. After Medicare carriers process a claim for a dually eligible beneficiary, they
send an electronic notification to the States. In accordance with a State’s particular
plan, Medicaid assumes responsibility for the recipients’ premiums, deductibles, and
coinsurance.   Payments made by Medicaid for these dually eligible beneficiaries are
called “crossover” payments.

Inconkwce    Supplies

Incontinence is the inability of the body to control urinary and bowel functions. Under
the Medicaid program, States have the option to cover incontinence care supplies and
related equipment and accessories. Based on prescriptions furnished by patients’
physicians, such supplies and equipment could include disposable pads, irrigation
syringes, saline solutions, and collection devices.

CarrierClaimsI%ocessing

In June 1992, HCFA issued a final rule designating four Durable Medical Equipment
Regional Carriers (DMERCS) to process all claims for durable medical equipment,
prosthetics, orthotics, and supplies. In October 1993, the DMERCS began replacing
the 32 carriers which had previously processed DME claims. The geographical areas


                                            1

formerly serviced by the carriers were phased in under the DMERCS on a staggered
basis. To ensure consistency in medical review policies, each DMERC issues identical
coverage and reimbursement policies that implement Medicare guidelines.

~ce   of IiupectorGeneralStudieson IncontinenceSupplies

We recently completed two studies on incontinence supplies provided to Medicare
beneficiaries. One of these was entitled, Marketing OfIncontinence Supplies (OEI-03-
94-00770). We found that (1) information from nursing homes indicates that suppliers
engage in questionable marketing practices, (2) beneficiaries may be receiving
unnecessary or noncovered supplies, and (3) many nursing homes do not provide the
Medicare-reimbursed   supplies to the specific beneficiary for whom the supplies were
billed.

The second of these studies was entitled, Questionable Medicare Payments For
continence    Supplies (OEI-03-94-O0772). We found that (1) Medicare allowances
more than doubled in 3 years despite a drop in the number of beneficiaries using
incontinence supplies, (2) four types of incontinence supplies accounted for most of
the increase in Medicare allowances, and (3) questionable billing practices may have
accounted for almost $100 million or half of incontinence allowances in 1993.

We then conducted a third study to determine if similar practices existed in the
Medicaid program. This report is the result.

OperationRestore Thst

This inspection was conducted as part of “Operation Restore Trust,” a pilot program
that coordinates Federal, State, and local anti-fraud activity in five States. The
program will target abuses in home health agencies, nursing facilities, and DME
equipment, including incontinence supplies. The project’s initial focus will be in
California, Florida, Illinois, New York, and Texas.

METHODOLOGY

Since there is no national database of Medicaid payments for incontinence supplies
and related accessories, we reviewed a sample of Medicaid State agencies based on
Medicare utilization rates. We selected 14 States where incontinence payments under
Medicare were the highest: Alabama, California, Florida, Georgia, Illinois, Louisiana,
Massachusetts, Missouri, New Jersey, New York, Ohio, Oklahoma, Pennsylvania, and
Texas. These 14 States represent approximately 76 percent of 1993 Medicare
payments for incontinence supplies. All five of the Operation Restore Trust States
were included in our sample.

We contacted the 14 Medicaid State agencies as well as the Medicaid Fraud Control
Units in these States to determine (1) the extent of Medicaid payments, including
crossover payments, and (2) improper payments for incontinence devices and supplies.


                                           2
We also requested details of every reported fraud and abuse case. We received
information from 13 of the 14 States sampled. All of the responding States cover
incontinence supplies; however the coverage policies are not identical.

To determine how overpayments in crossover claims are recovered, we contacted the
Medicare contractor fraud units in carriers which cover geographical areas served by
the Medicaid State agencies. These units oversee fraud and abuse detection and
prevention activities within the carriers. We also contacted the fraud units in the four
DMERCS for information. To determine if the responses from the fraud units were
representative of overall carrier procedures, we also contacted carrier personnel
involved in overpayment and recovery activities in general. In all, we received
responses from 14 carriers and four DMERCS.

This inspection was conducted in accordance with the Quali~ Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            3
                                 FINDINGS

HALF OF THE STATES IDENTIFIED              IMPROPER      MEDICAID     BBIJNGS      FOR
INCONTINENCE SUPPLIES.

Seven of the 13 responding States had encountered improper billing practices for

incontinence devices and supplies. The seven States were California, Florida,

Louisiana, Massachusetts, New York, Ohio, and Pennsylvania. The States identified a

wide variety of improper billings, including: (1) billings for recipients with no

incontinence problems, (2) billings for supplies which were never delivered, (3) billings

for excessive quantities of diapers for nursing home patients (up to 600 a month in

some cases), and (4) billings for supplies which were already paid in a nursing home’s

daily rates.

Payment amounts associated with these improper billings were not readily available in
most States or could not be extracted from data including other types of supplies, such

as enteral and ostomy supplies. Two States could provide overpayment data for

incontinence supplies: The overpayment amounts were $107 million in California and

almost $2 million in New York.


Improperincontinencesupp~ billingswereso prevalentthat Calijiomiaoganized a special
taskforce to attacktheproblem.

The California Medicaid program (known as Medi-Cal) uncovered widespread fraud in

supplier billings for incontinence supplies. As a result, program officials organized a

special task force to combat the problem. Multiple suppliers using abusive and

fraudulent practices were identified. In one scheme, that some newspapers

characterized as “diaperscam,” unscrupulous suppliers went door to door enticing

Medicaid beneficiaries to provide their signatures and Medicaid identification numbers

in exchange for medical supplies. This practice enabled suppliers to bill Medi-Cal for

incontinence supplies for recipients who were not incontinent.


STATES DO NOT GENERALL Y REVIEW THE APPROPRIATENESS                           OR
NECESSITY OF INCONTINENCE SERVICES PAID BY THEM ON
CROSSOVER.

In general, States do not review the appropriateness or necessity of their crossover
payments. As primary payer for dually eligible individuals, Medicare determines

whether claimed services should be reimbursed. Needless to say, in such

circumstances, many States accept Medicare’s decisions as valid and do not question

the propriety of such payments.


Only one State had reviewed the appropriateness of Medicaid crossover payments for

incontinence supplies. Among the States that did not review crossover payments, four

maintained that Medicare was responsible for verifying the accuracy and integrity of



                                            4
these claims. Another four States reported they did not have the technological
capability to target these claims for review. The remaining States indicated they had
not conducted reviews of crossover incontinence claims since they had not identified
aberrant billings or received complaints relating to incontinence supplies. One State
representative said suppliers should be required to submit claims for crossover
reimbursements directly to Medicaid agencies as this would put the States in a better
position to determine the propriety of these payments.

Crossoverpaymentscompriw a si*ant          pvtion of totalMedicaidpaymen~ for
incontinencesuppliixin sonw States.

Of the three States that reported significant crossover payments for incontinence
supplies, crossover payments were exceedingly larger than regular Medicaid payments
for incontinence supplies. The table below compares Florida’s Medicaid crossover
payments with regular Medicaid payments for incontinence supplies. Crossover
payments exceeded regular Medicaid payments for three frequently billed incontinence
supplies by more than $1.4 million.


                             Florida Medicaid Payments for Three
                         Imxmtinenee Sunnlv Cocks in Ikal Year 1994




 Irrigation syringes (A4322)   I                    $10.458   I                 $455.975

 Saline solutions (A4323)                            40,365                     851,349




In Texas, more than $700,000 was paid in crossover payments for the three supplies
listed above compared to $45,000 in Medicaid-only payments. Missouri reported
crossover payments exceeding $430,000 for all incontinence supplies in Fiscal Year
1994.

Floridkhas initiateda reviinvof the appropriatenasof crossoverchims.

The Florida Medicaid agency has recently initiated a plan to review crossover

payments for incontinence supplies. When the Medicaid agency was first contacted,

they advised us they did not conduct utilization reviews of crossover claims.

Furthermore, they said that no suppliers had been identified as submitting

questionable claims. However, after our initial contact, 18 suppliers were identified

for submitting questionable billings for incontinence supplies to the Florida Medicare

carrier. Potential overpayments to these suppliers totaled in excess of $60 million.

(The Florida carrier had accounted for over half of all incontinence allowances in 1993

as well as the bulk of questionable payments nationally.) The Medicaid agency had

reimbursed crossover claims for a number of these suppliers. Because of the large



                                             5
number of questionable billings to Medicare, a task force was formed to combat the
problem. The task force will also address crossover claims. In addition, the Florida
Medicaid agency has sent letters to recipients inquiring about their need for
incontinence supplies and asking if they had received the supplies in question.

MEDICARE DOES NOT REQUIRE CARRB3RS TO NOTIFY MEDICAID
STATE AGENCIES OF IMPROPER MEDICARE PAYMENTS MADE ON
BEHALF OF MEDICAID BENEFICIARIES.

Medicare guidelines do not require carriers to notify Medicaid programs of the
existence of Medicare overpayments. Only five of the 18 carriers and DMERCS which
responded to our requests report that they routinely notify Medicaid State agencies
when they learn of potential crossover overpayments. Only one of the four DMERCS
routinely notifies Medicaid. Two other DMERCS notify Medicaid on an irregular
basis. None of the responding carriers or DMERCS had written policies concerning
the handling of crossover overpayments.

Of the 18 carriers and DMERCS which responded to our requests for information, 17
indicated they are not required by Medicare to notify Medicaid State agencies when
they learn of potential crossover overpayments. Only one respondent said they were
required to notify Medicaid State agencies. However, this requirement pertained only
to Medicaid Fraud Control Units in suspected fraud cases, the respondent explained.

The Medicare Carriers Manual and the Code of Federal Regulations (see 42 CFR
405.375) contain provisions allowing Medicare contractors to withhold Medicare
payments to recover Medicaid overpayments that a Medicaid agency has been unable
to collect. However, if Medicaid agencies are not notified that crossover claims are
potentially improper, they will be unable to initiate collection actions, including this
mechanism to collect Medicaid overpayments.




                                            6
                   RECOMMENDATIONS

Our findings indicate that Medicaid is vulnerable to questionable billing practices for
incontinence supplies. In one State, California, improper payments exceeded $100
million. Other States experienced problems, but to a lesser degree.

We also found that States do not generally review the appropriateness or necessity of
incontinence services paid by Medicare, and that Medicare does not require
contractors to notify Medicaid State agencies of improper crossover payments made
on behalf of Medicaid beneficiaries. Thus, States may inadvertently make unallowable
payments for Medicare copayments.

We recommend that HCFA (1) alert        Medicaid State agencies about this vulnerability
regarding incontinence supplies, and   (2) take appropriate steps to ensure that
Medicaid State agencies are notified   of improper Medicare payments which
contractors discover have been made     on behalf of a Medicaid beneficiary.

While this report is limited to a review of Medicaid payments for incontinence
supplies, we believe that the problems identified associated with potentially improper
crossover payments are not limited to these supplies. If Medicaid State agencies are
not informed of the existence of improper Medicare payments on behalf of a
Medicaid beneficiary, Medicaid is powerless to avoid or recoup the related improper
Medicaid crossover payment, Thus, our second recommendation is applicable to all
Medicare services provided to Medicaid recipients, not just incontinence supplies.

We cannot precisely estimate the dollar savings to the Medicaid program that would
result from implementing these recommendations, but, based on the information we
have gathered it probably amounts to several million dollars per year.

AGENCY COMMENTS AND OFFICE OF INSPECTOR                       GENERAL      RESPONSE

We appreciate HCFA’S positive response to our recommendations.         The HCFA plans
to focus attention on this matter as part of their overall fraud and abuse prevention
and detection strategy. Additionally, they plan to amend the Medicare Carriers
Manual to require that carriers notify Medicaid State agencies about improper
payments made on behalf of Medicaid beneficiaries. We support HCFA in these
initiatives. The HCFA also provided a technical comment relating to how DMERCS
develop national policies. We have revised our report in accordance with this
comment. The full text of HCFA’S comments can be found in Appendix A.




                                             7
APPENDIX          A




  HCFA COMMENTS




       A-1
              Health Care Financing Administration (’HCFA) Comments on
OffIce of Inspector General (OIG) Drafl Report: “Medicaid Pavments for Incontinence
                            Supplies” (OEI-03-94-00771)


OIG Recommendation

OIG recommends that HCFA implement procedures to require Medicare contractors to
notify the Medicaid State agencies on a routine basis of improper Medicare payments
made on behalf of a Medicaid beneficiary.

HCFA Response

We concur. We will focus our attention on this particular problem as part of our overall
fraud and abuse prevention and detection strategy. TO ensure that Medicaid State
agencies are made aware of improper Medicare payments a fraud alert regarding
inappropriate billing for incontinence devices was sent to all Medicaid Fraud LJnk in
March 1994. The Mediwe Carriers Manual will be amended to require that Medicare
carriers not@ the Medicaid State agency on claims retroactively denied to enable
Medicaid to recover its payment. MSO,we will require carriers to inform agencies to
suspend payment after the claims are approved so as not to incur crossover payment.

Technical Comments

The report states that -h Dwble Medical E@pment Regional Carrier (DMERC)
issues its own cov~e     and reimbursement policies mat implement Medicare @delines.
This is not entirely mmect. TOWmply witi tie D~RC con~ct for fis~ yw 1995, the
DMERC medical directors am required to Mlltimte in the development of regional
medieal review policies for IME, prosthetics,orthotics, am-l supplies.The find policies
that are published by each of the DMERCS in their supplier bulletins must be identical.
The DMERCS are required to publish identid Poficies to e~ure mnaistency in coverage
determinations and avoid coverage variations across the four regional carriers.
